TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                           The Federal, State, and Local
                          Governments Office Can Improve
                         the Workload Selection Process to
                              Increase Effectiveness



                                             April 2006

                              Reference Number: 2006-10-073




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   DEPARTMENT OF THE TREASURY
                                                          WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                    April 28, 2006


 MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT ENTITIES
                DIVISION

 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – The Federal, State, and Local Governments Office
                                Can Improve the Workload Selection Process to Increase Effectiveness
                                (Audit # 200510029)

 This report presents the results of our review of the Federal, State, and Local Governments
 (FSLG) office’s workload selection process. The overall objective of this review was to assess
 the FSLG office’s progress in developing a workload selection system that identifies and
 prioritizes the compliance activity cases with the highest risk of noncompliance. In Fiscal
 Year (FY) 2003, the FSLG office indicated that 60 percent of available resources were allocated
 to outreach activities. Beginning in FY 2004, the FSLG office took actions to achieve a better
 balance between educational and compliance activities. According to the FSLG Compliance
 Plan, compliance activities increased from 40 percent to 80 percent of available direct time from
 FY 2003 to FY 2005, with outreach activities reduced from 60 percent to 20 percent of direct
 time during the same time period. The increased emphasis on compliance activities was
 designed to create a more balanced, effective, and informed program.

 Synopsis
 FSLG office management has implemented a workload selection process to identify and
 prioritize compliance contact cases1 for assignment to FSLG office field personnel. This process



 1
  Compliance contact cases collectively refer to examinations and compliance checks. A compliance check is a
 contact with the customer that involves a review of filed information and tax returns of the entity. A compliance
 check does not directly relate to determining a tax liability for any particular tax period, and a customer may legally
 choose not to participate in a compliance check.
                   The Federal, State, and Local Governments Office Can Improve
                     the Workload Selection Process to Increase Effectiveness



includes performing Return Inventory and Classification System (RICS)2 queries, judgmentally
prioritizing cases based on RICS queries, and determining the appropriate type of compliance
activity to conduct (examination versus compliance check). However, FSLG office management
acknowledges that effective workload planning for compliance contact cases is a challenge due
to the lack of FSLG office compliance benchmarks and baseline measures developed to date.
Because the FSLG office has not established baseline measures for a productive examination
rate, and compliance checks do not readily lend themselves to measuring the impact on
compliance, it is difficult to determine the effectiveness of the workload selection process in
identifying potential noncompliance cases. Nonetheless, we reviewed the FSLG office’s
workload selection process and identified two areas that can be improved to ensure more
effective selection of the highest risk cases.
In addition, FSLG office management is not systemically capturing and analyzing the
effectiveness of the RICS queries used to identify Federal, State, and local government entities
for compliance activity. If this information was systemically captured in a format that can be
easily analyzed, it would enable FSLG office management to conduct systemic analyses to
determine the RICS queries that result in the identification of more productive casework and
provide baseline measures of the level of noncompliance identified. In addition, the selection of
cases for assignment to the field specialists involves some subjective decisions by the FSLG
Outreach, Planning, and Review office personnel after the queries are run. We have discussed
with FSLG office management the practicality of assigning a numeric score to each case to
increase consistency and reduce subjectivity during the classification and selection process.
Further, we determined FSLG office personnel are not analyzing
the results of closed compliance contact cases to identify the                          The FSLG office’s
compliance issues identified by FSLG office field specialists. This                 workload selection system
type of analysis could be used by FSLG office management to                            can be improved by
identify the common issues developed during compliance contacts                     systemically capturing and
and, if appropriate, to incorporate them to improve the effectiveness               analyzing information from
                                                                                     closed cases to identify
of the RICS queries. In addition, this analysis could be used to                         more productive
assess the productivity of compliance check cases.                                  compliance contact cases.

Recommendation
We recommended the Director, Government Entities, provide the necessary resources to develop
an action plan that ensures the needed enhancements to the workload selection process will be
timely implemented and monitored. The action plan should include specific actions to separately
track the productivity of each RICS query; evaluate the feasibility of developing a scoring


2
 The RICS contains return and filer information related to the filing and processing of Employee Plans, Exempt
Organizations, and Government Entities forms.
                                                                                                                 2
                The Federal, State, and Local Governments Office Can Improve
                  the Workload Selection Process to Increase Effectiveness



system to assist in the FSLG Outreach, Planning, and Review office workload selection process;
analyze the results of the compliance contact cases to identify significant areas of noncompliance
and potential education and outreach issues; and build these areas into the RICS queries to
identify more productive cases for future compliance activity.

Response
The Commissioner, Tax Exempt and Government Entities Division, agreed with the
recommendation contained in the report. Government Entities function management has
developed a written action plan for improving the workload selection process. FSLG office
management has revised the Microsoft Access® database to separately track the productivity of
each RICS query and will analyze FY 2006 data to determine the productivity of each RICS
query used in the case selection process. The Director, Government Entities, also considered the
feasibility of developing a scoring system to assist in the FSLG office workload selection process
and determined it is not feasible. However, FSLG office management will establish folders for
each State that will include State-specific information that may affect the information on various
line items on the Employer’s Quarterly Federal Tax Return (Form 941). FSLG office
management believes the use of this information, combined with the RICS queries, will
substantially reduce the subjectivity among classifiers (analysts) in case selection.
Management’s complete response to the draft report is included as Appendix IV.
Copies of this report are also being sent to the Internal Revenue Service managers affected by the
report recommendation. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs), at (202) 622-8500.




                                                                                                 3
                      The Federal, State, and Local Governments Office Can Improve
                        the Workload Selection Process to Increase Effectiveness




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Additional Actions Should Be Taken to Improve the
          Workload Selection Process .........................................................................Page 4
                    Recommendation 1:..........................................................Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Management’s Response to the Draft Report ......................Page 14
                 The Federal, State, and Local Governments Office Can Improve
                   the Workload Selection Process to Increase Effectiveness




                                       Background

Currently, there are approximately 87,000 Federal Government agencies, State governments,
local governments, and quasi-governmental entities in the United States. These governmental
entities are generally not subject to Federal income tax; however, they are generally required to
file information returns and to file and pay employment and excise taxes. These entities employ
23 million employees (approximately 20 percent of the United States workforce) and pay wages
in excess of $760 billion and employment taxes in excess of $200 billion annually.
The Federal, State, and Local Governments (FSLG) office in the Government Entities function
of the Tax Exempt and Government Entities Division is responsible for providing these
87,000 customers top-quality service by helping them understand and comply with the tax laws.
To accomplish its mission, the FSLG office uses a combination of educational and compliance
activities to provide service to its customers. The FSLG office was established in Fiscal
Year (FY) 2000 as part of the Internal Revenue Service’s (IRS) modernization process. Prior to
this, addressing the tax compliance issues of Federal, State, and local government entities was
the responsibility of several organizational entities within the IRS. As a result, during the initial
years, the FSLG office focused primarily on outreach and education to help customers
understand IRS filing and reporting requirements and how to accurately and timely file tax
returns and any other required returns.
This emphasis can also be seen in how the FSLG office allocated staff resources during this
period. In FY 2003, the FSLG office indicated that 60 percent of available resources were
allocated to outreach activities. Beginning in FY 2004, the FSLG office took actions to achieve
a better balance between educational and compliance activities. According to the FSLG
Compliance Plan, compliance activities increased from 40 percent to 80 percent of available
direct time from FY 2003 to FY 2005, with outreach activities reduced from 60 percent to
20 percent of direct time during the same time period.
The increased emphasis on compliance activities was designed to create a more balanced,
effective, and informed program. The goals of this increased emphasis on compliance include
the following:
   •   Develop baselines for future actions.
   •   Establish a compliance presence in all the market segments.
   •   Identify significant areas of compliance for future education and compliance activities.
   •   Identify significant issues for development of IRS guidance.



                                                                                               Page 1
                    The Federal, State, and Local Governments Office Can Improve
                      the Workload Selection Process to Increase Effectiveness



    •    Determine the effectiveness of the FSLG office’s educational efforts and their effects on
         compliance.
    •    Identify abusive tax avoidance transactions that FSLG office customers may be
         facilitating.1
The FSLG Outreach, Planning, and Review (OPR) office is responsible for the overall
operational development, planning, and program monitoring for the FSLG office, including
identifying and assigning examinations and compliance checks2 (collectively referred to as
compliance contact cases) to the field groups. FSLG office group managers provide written
requests for compliance contact cases to FSLG OPR office personnel on a periodic basis
throughout the year. To identify cases for assignment, the FSLG OPR office analyzes
employment tax information on government entities through the Return Inventory and
Classification System (RICS).3
In a prior audit,4 we reported that 12,878 Federal, State, and local government entities were
identified as delinquent during Calendar Years 1999, 2000, or 2001. Additional analysis of these
entities showed that 2,697 entities had not submitted the required tax payments (resulting in
balances due of $104 million), and 1,604 entities had not submitted the required tax returns to
account for almost $7.4 billion in tax deposit credits. Tax Exempt and Government Entities
Division management believed a significant portion of the delinquent dollar amount represented
error conditions or misapplied payments that, when resolved, would result in a zero balance.
Examination activity during the initial start-up years generally focused on limited scope audits
and claims for refunds by FSLG office customers. As part of the Treasury Inspector General for
Tax Administration’s FY 2006 audit planning, the Director, Government Entities, proposed that
we conduct a review of the FSLG office’s case selection database because it wanted to build a
database that could select the most productive examination cases. This review was performed at
the Tax Exempt and Government Entities Division Headquarters in Washington, D.C., as well as
the FSLG OPR office and the Gulf Coast Area Office in Austin, Texas. We also contacted

1
  If employment tax schemes are identified as abusive transactions, the FSLG office is responsible for identifying
the government entity’s role in the scheme and examining the issue. If the abusive tax avoidance transaction
involves nonemployment tax, the FSLG office should be alert to facts that may suggest a government entity is
engaged in the abusive transaction as an accommodation party (e.g., a government entity may sell or lease a public
facility to a private company and then lease the facility back. The government entity does not receive any Federal
income tax benefit from this transaction, but under certain circumstances such transactions allow the private
company to take large depreciation or rent deductions without assuming any risk of ownership).
2
  A compliance check is a contact with the customer that involves a review of filed information and tax returns of
the entity. A compliance check does not directly relate to determining a tax liability for any particular tax period,
and a customer may legally choose not to participate in a compliance check.
3
  The RICS contains return and filer information related to the filing and processing of Employee Plans, Exempt
Organizations, and Government Entities forms.
4
  Additional Management Actions Should Be Taken to Ensure That Government Entities’ Customers Meet Their
Federal Tax Obligations (Reference Number 2002-10-123, dated September 2002).
                                                                                                               Page 2
                The Federal, State, and Local Governments Office Can Improve
                  the Workload Selection Process to Increase Effectiveness



FSLG office personnel in Schaumburg, Illinois; Rochester, New York; and
Philadelphia, Pennsylvania, during the period July through November 2005. The audit was
conducted in accordance with Government Auditing Standards. Detailed information on our
audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




                                                                                         Page 3
                   The Federal, State, and Local Governments Office Can Improve
                     the Workload Selection Process to Increase Effectiveness




                                      Results of Review

Additional Actions Should Be Taken to Improve the Workload
Selection Process
FSLG office management has implemented a workload selection process to identify and
prioritize compliance contact cases for assignment to FSLG office field personnel. This process
includes performing RICS queries, judgmentally prioritizing cases based on RICS queries, and
determining the appropriate type of compliance activity to conduct (examination versus
compliance check).
For examination cases, the FSLG office’s selection process has identified a relatively high
percentage of productive cases (cases that have identified noncompliance; e.g., change cases and
no change with adjustment cases5), as well as examinations that did not identify noncompliance
(no change cases; e.g., no adjustments or changes in tax liability). Figure 1 shows the results of
examinations performed by FSLG office personnel during FYs 2003-2005.
                           Figure 1: FSLG Office Examination Results
                                                                      No Change
        Fiscal          Number of                No Change               With                  Change
        Year          Returns Closed             Percentage           Adjustments             Percentage
                                                                      Percentage
         2003                  5                     20%                    0%                    80%
         2004                214                     24%                    9%                    67%
         2005               1,050                    37%                    2%                    61%
    Source: FYs 2003-2005 FSLG Audit Information Management System (AIMS) Table 20 (Government
    Entities Accomplishments by Project Code) Reports.6

Compliance checks cannot be measured in the same manner. As previously stated, a compliance
check is not an examination of the customer’s books and records and does not involve a

5
  A “no change with adjustment” case applies to no change examined returns if there was an adjustment to income
or deduction items (tax base data) but no change in tax liability or refundable credits. Examples of a no change with
adjustment case include delinquent returns secured and claims disallowed in full.
6
  FSLG office management informed us that the AIMS Table 20 Report for FYs 2003 and 2004 does not accurately
reflect the number of examinations performed. During this period, FSLG office management stated some completed
examination cases were not properly recorded on the AIMS for reporting purposes due to certain error conditions.
These error cases were not resolved by FSLG office personnel and, therefore, did not post to the AIMS.
                                                                                                             Page 4
                The Federal, State, and Local Governments Office Can Improve
                  the Workload Selection Process to Increase Effectiveness



determination of tax liability. The primary goal of compliance checks is to educate customers
about their tax filing requirements. The results of compliance checks are used to develop issues
for audit consideration and to identify customer needs for additional education and outreach.
One measure used for compliance checks is the number conducted per year. Figure 2 shows the
number of compliance check cases completed by FSLG office personnel during FYs 2003-2005.
                  Figure 2: FSLG Office Compliance Checks Results
                                                 Number of Compliance
                           Fiscal Year
                                                 Check Cases Completed
                              2003                          690
                              2004                          744
                              2005                          807
                     Source: FY 2005 Tax Exempt and Government Entities Division
                     Business Performance Review.

FSLG OPR office personnel use the following process to identify compliance contact cases for
assignment to the field groups. Currently, FSLG OPR office personnel analyze the
Employer’s Quarterly Federal Tax Return (Form 941) data maintained on the RICS as the main
source for compliance work. FSLG OPR office personnel run from 1 to 14 predefined RICS
queries to identify line items that appear to be outside the normal ranges when compared to other
line items on the Form 941. Based on the results of these queries, FSLG OPR office personnel
judgmentally prioritize cases for assignment to the field based on the highest indicators of
potential noncompliance. The group managers are responsible for assigning the compliance
contact cases to field specialists for review and providing oversight during case processing. The
number of FSLG office field specialists responsible for completing compliance contact cases
increased from 68 to 81 from the end of FY 2002 through FY 2005, which enabled the FSLG
office to increase the number of cases completed.
We interviewed four of the eight group managers to obtain their feedback on the quality of
compliance contact cases provided by the FSLG OPR office analysts. Generally, the managers
stated the quality of cases was good. One manager stated the current quality of cases is better
than a year ago and attributed this to the fact that the group was focusing on a market segment
last fiscal year, as opposed to general casework this fiscal year. Another manager stated that,
although the RICS has identified noncompliance issues for small to mid-size entities, it was not
good at identifying potential compliance problems associated with larger entities involving more
complicated issues.
The FSLG office acknowledges that effective workload planning for compliance contact cases is
a challenge due to the lack of FSLG office compliance benchmarks and baseline measures
developed to date. FSLG office management has indicated their customers have not been the
subject of significant research or information gathering activity. As a result, they do not have
                                                                                          Page 5
                The Federal, State, and Local Governments Office Can Improve
                  the Workload Selection Process to Increase Effectiveness



accurate and statistically valid data related to compliance levels and indicators of noncompliance
to assist them in selecting productive cases for review.
Because the FSLG office has not established baseline measures for a productive examination
rate, and compliance checks do not readily lend themselves to measuring the impact on
compliance, it is difficult to determine the effectiveness of the workload selection process in
identifying potential noncompliance cases. Nonetheless, we reviewed the FSLG office’s
workload selection process and identified two areas that can be improved to ensure more
effective selection of the highest risk cases:
   •   Evaluate the effectiveness of the RICS queries. FSLG office management is not
       systemically capturing and analyzing the effectiveness of the RICS queries used to
       identify Federal, State, and local government entities for compliance activity. If this
       information was systemically captured in a format that can be easily analyzed, it would
       enable FSLG office management to conduct systemic analyses to determine the RICS
       queries that result in the identification of more productive casework and provide baseline
       measures of the level of noncompliance identified. This would ensure the most
       productive use of limited FSLG office resources and minimize any potential burden to its
       customers. In addition, the selection of cases for assignment to the field specialists
       involves some subjective decisions by FSLG OPR office personnel after the queries are
       run. We have discussed with FSLG office management the practicality of assigning a
       numeric score to each case to increase consistency and reduce subjectivity during the
       classification and selection process. FSLG office management agreed to evaluate the
       feasibility of a numeric score; however, they advised that assigning a numeric scoring
       system for FSLG customers would be complicated due to differences in employment tax
       reporting requirements between the various States and even within a State (e.g., Social
       Security Administration agreements, retirement plans).
   •   Analyze closed cases to identify common issues that can be used to focus future
       work. We determined FSLG office personnel are not analyzing the results of closed
       compliance contact cases to identify the compliance issues identified by FSLG office
       field specialists, such as the reporting of fringe benefits. This type of analysis could be
       used by FSLG office management to identify the common issues developed during
       compliance contacts and, if appropriate, to incorporate them to improve the effectiveness
       of the RICS queries. In addition, this analysis could be used to assess the productivity of
       compliance check cases.

FSLG office management should systemically track and analyze the productivity
of each RICS query and develop a scoring system to ensure consistency and
assess the effectiveness of the workload selection process
Since October 1, 2004, the FSLG office has been securing feedback from field specialists on the
quality and productivity of the workload selection process for all compliance contact cases sent

                                                                                            Page 6
                The Federal, State, and Local Governments Office Can Improve
                  the Workload Selection Process to Increase Effectiveness



to the field. Specifically, each case has a unique sheet (Case Selection Survey) that identifies the
RICS query/queries used for case identification. The field specialists complete this sheet when
they close the case and indicate the issue(s) identified during the compliance contact and whether
each query was productive or not (e.g., did an assessment result from the query). The Case
Selection Survey sheet was revised in July 2004 to separately track the productivity of each
query. As part of the case closing, an FSLG OPR office analyst inputs the data from the sheet
into a Microsoft Access® database. However, at the end of our fieldwork, we determined the
database allowed FSLG OPR office personnel to track only whether the case was productive (yes
or no), not whether each query was productive, although FSLG OPR personnel included
information related to the productivity of the RICS queries in a narrative format in a comments
section of the database. As a result, FSLG OPR personnel cannot easily analyze the narrative
information to identify possible issues relating to the productivity of a specific RICS query.
To assess the productivity of each RICS query, the FSLG OPR office personnel should insert
additional fields in the database for each possible RICS query used during the classification
process to track the field specialists’ assessment of the productivity of the individual RICS
queries. When we raised this issue with the responsible FSLG OPR office analyst, the analyst
indicated the database would be modified to separately track the productivity of each RICS
query.
In addition, the individual RICS query assessments on the Case Selection Survey sheets have not
been analyzed by FSLG office personnel. Without a structured process to systemically capture
and analyze the productivity of the RICS queries, FSLG office management will not know which
RICS queries are good indicators of noncompliance and which may not be. This analysis will
enable FSLG office management to make a more informed business decision regarding how to
effectively use the RICS queries in their workload selection process and where to focus future
compliance contact cases to address the highest areas of noncompliance.
Another area for improvement involves the subjective nature of selecting cases for assignment to
the field. As stated previously, FSLG OPR office personnel judgmentally prioritize cases for
assignment to the field based on the results of the RICS queries. Prior to October 2004,
one analyst was responsible for classifying and selecting all compliance contact cases for the
eight FSLG office field groups nationwide. In October 2004, the FSLG office hired an
additional FSLG OPR office analyst to assist with the classification and selection process. As a
result, each FSLG OPR office analyst is now responsible for the classification and workload
delivery for four groups. We believe this process increases the risk of subjectivity and
inconsistency in the identification of cases for compliance activity. We discussed with FSLG
office management the practicality of assigning a numeric score to each case using some type of
weighted average based on the query/queries’ prior effectiveness in identifying productive
casework. For example, queries that historically have proved to be the most productive in terms
of identifying noncompliance issues could be assigned a higher numeric score than the less


                                                                                             Page 7
                   The Federal, State, and Local Governments Office Can Improve
                     the Workload Selection Process to Increase Effectiveness



productive queries. Cases with the highest aggregate score could be given a higher priority as
potential compliance contact cases.

The FSLG office has not analyzed closed cases to identify issues for future
compliance work
Although FSLG office field specialists document the issues identified during the compliance
contact cases on the Case Selection Survey sheet, FSLG office personnel have not analyzed these
results to identify issues for future compliance contact cases and additional education and
outreach activities. This issue was previously raised for compliance check cases. In a prior audit
report,7 we recommended the FSLG office analyze the results of compliance check cases to
identify significant areas of noncompliance for future educational and compliance activities.
FSLG office management agreed that this analysis was necessary and indicated they would hire
additional resources for the FSLG OPR office to perform this analysis to identify trends, issues,
and opportunities for compliance, education, and guidance.
FSLG office management stated that additional resources were hired for the FSLG OPR office;
however, the results of the compliance contact cases had not been analyzed by the end of our
fieldwork due to increased workloads. An analysis of closed compliance contact cases could
show the RICS queries that were most successful (or least successful) in identifying
noncompliance issues, which would be valuable for FSLG office management in ensuring future
compliance coverage is focused on returns with a higher risk of noncompliance. In addition, the
analysis would provide useful information on the compliance issue(s) identified by the field
specialist.
We also believe the lack of a detailed action plan related to the development of a workload
selection process has limited FSLG office management’s progress in this area. A plan that
included actions planned, individuals assigned, responsible management official(s), completion
dates, expected results, and methods to monitor and report performance would better enable
FSLG office management to implement a productive workload selection process, even if the
process had to be implemented in various stages based on available resources.
Another factor that may have contributed to limited progress in this area is the high turnover of
key management officials within the FSLG office. Since FY 2003, the FSLG office has had four
acting or permanent Directors, and the FSLG OPR office has had five acting or permanent
managers. During this period, we believe a detailed action plan could have enabled FSLG office
management to develop a workload selection system that would best meet the needs of FSLG
office personnel in identifying and addressing noncompliance.



7
 The Federal, State, and Local Governments Office Needs Additional Information to Assess the Productivity of
Compliance Checks and Assist Its Compliance and Outreach Efforts (Reference Number 2004-10-145, dated
August 2004).
                                                                                                         Page 8
                The Federal, State, and Local Governments Office Can Improve
                  the Workload Selection Process to Increase Effectiveness



Recommendation
To improve the productivity of compliance contact cases and better enable the FSLG office to
achieve its goals, the Director, Government Entities, should provide the necessary resources to:
Recommendation 1: Develop an action plan that ensures the needed enhancements to the
workload selection process will be timely implemented and monitored. The action plan should
document actions planned and indicate individuals assigned to specific actions, responsible
management official(s), completion dates, expected results, and methods to monitor and report
performance. Specific actions should include:
   •   Revising the Microsoft Access® database to separately track the productivity of each
       RICS query.
   •   Evaluating the feasibility of developing a scoring system to assist in the FSLG OPR
       office workload selection process. Specifically, determine if a weighted scoring system
       can be developed that consolidates multiple RICS queries into a numeric score based on
       the highest risk of noncompliance and the difference in the various State reporting
       requirements. This type of scoring system could ensure consistency and reduce
       subjectivity among the analysts identifying compliance contact cases.
   •   Analyzing the results of the compliance contact cases to identify significant areas of
       noncompliance and potential education and outreach issues, and building these areas into
       the RICS queries to identify more productive cases for future compliance activity.
       Management’s Response: The Commissioner, Tax Exempt and Government
       Entities Division, agreed with this recommendation. Government Entities function
       management has developed a written action plan for improving the workload selection
       process. FSLG office management has revised the Microsoft Access® database to
       separately track the productivity of each RICS query. In October 2006, FSLG office
       management will begin to analyze the data captured for FY 2006 to determine the
       productivity of each RICS query used in the case selection process. The Director,
       Government Entities, also considered the feasibility of developing a scoring system to
       assist in the FSLG office workload selection process and determined it is not feasible.
       However, FSLG office management will establish folders for each State that will include
       State-specific information that may affect the information on various line items on the
       Form 941. FSLG office management believes the use of this information, combined with
       the RICS queries, will substantially reduce the subjectivity among classifiers (analysts) in
       case selection.




                                                                                            Page 9
                The Federal, State, and Local Governments Office Can Improve
                  the Workload Selection Process to Increase Effectiveness



                                                                                  Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the Federal, State, and Local Governments
(FSLG) office’s progress in developing a workload selection system that identifies and
prioritizes the compliance activity cases with the highest risk of noncompliance. To accomplish
this objective, we:
I.     Obtained statistical data on FSLG office compliance activity from Fiscal
       Year (FY) 2003 through FY 2005.
       A. Obtained available Audit Information Management System reports that showed the
          number and type of compliance activities closed and the results of these activities.
       B. Determined the staff resources allocated by the FSLG office to perform compliance
          activities.
II.    Assessed the process followed by FSLG office management to identify and prioritize
       compliance activity from FY 2003 through FY 2005.
       A. Conducted a walk-through of the FSLG office workload selection process.
       B. Determined if an action plan was prepared in developing the workload selection
          process.
       C. Interviewed Outreach, Planning, and Review office personnel to determine the
          process followed from FY 2003 through FY 2005 to identify and prioritize
          compliance activity for the FSLG office field groups.
       D. Identified the available sources of compliance activity and the frequency of use for
          each source and determined if the FSLG office plans to add new sources of
          information to improve its workload selection process.
       E. Assessed how FSLG office management monitors compliance activity casework to
          ensure the FSLG office meets its compliance goals.
III.   Assessed the process followed by FSLG office management to enhance its workload
       selection process based on the results of its compliance activities.
       A. Interviewed Outreach, Planning, and Review office personnel to determine how the
          results of compliance activities are tracked and analyzed.
       B. Determined if FSLG office management uses the results of compliance activities to
          improve their workload selection process and their compliance and outreach efforts.

                                                                                         Page 10
        The Federal, State, and Local Governments Office Can Improve
          the Workload Selection Process to Increase Effectiveness



C. Interviewed a sample of FSLG office area managers to obtain their feedback on the
   quality of cases provided by Outreach, Planning, and Review office personnel.




                                                                               Page 11
               The Federal, State, and Local Governments Office Can Improve
                 the Workload Selection Process to Increase Effectiveness



                                                                              Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Nancy Nakamura, Director
Jeffrey M. Jones, Audit Manager
Margaret Anketell, Lead Auditor
Andrew Burns, Senior Auditor
Michael McGovern, Auditor




                                                                                      Page 12
               The Federal, State, and Local Governments Office Can Improve
                 the Workload Selection Process to Increase Effectiveness



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Government Entities, Tax Exempt and Government Entities Division SE:T:GE
Director, Office of Federal, State, and Local Governments, Tax Exempt and Government Entities
Division SE:T:GE:FSL
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                     Page 13
    The Federal, State, and Local Governments Office Can Improve
      the Workload Selection Process to Increase Effectiveness



                                                    Appendix IV

Management’s Response to the Draft Report




                                                           Page 14
The Federal, State, and Local Governments Office Can Improve
  the Workload Selection Process to Increase Effectiveness




                                                       Page 15
The Federal, State, and Local Governments Office Can Improve
  the Workload Selection Process to Increase Effectiveness




                                                       Page 16
